                  Additional Disaster Recovery Planning,
                 Testing, and Training Are Needed for Data
                             Communications

                                     April 2004

                       Reference Number: 2004-20-079




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                             April 9, 2004


       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - Additional Disaster Recovery Planning,
                              Testing, and Training Are Needed for Data Communications
                              (Audit # 200320019)


       This report presents the results of our review of the telecommunications disaster
       recovery strategy. The overall objective of this review was to determine whether the
       Internal Revenue Service (IRS) developed and tested an effective telecommunications
       disaster recovery strategy.
       To allow users and taxpayers fast and efficient access to applications and services, the
       IRS must have a robust, responsive telecommunications infrastructure that provides
       high-speed, high-availability network connectivity. The IRS Enterprise Networks
       organization is responsible for managing the design and engineering of the
       telecommunications environment, which includes approximately 181,500 network
       devices and 1,200 network connection addresses.
       In summary, the IRS has implemented several measures to create a robust and resilient
       network architecture to support continuous data communications. For example, it has
       made significant upgrades to its data communications network, including redundant
       connections and diverse data traffic routing for key facilities, and standardization and
       redundancy in network hardware. The IRS has also taken additional measures at its
       facilities to reduce the vulnerability of the network, including off-premises storage of
       network documentation, network system backups, installation of an uninterruptible
       power supply, and identification and reduction of single points of failure within the
       network. In addition, the Enterprise Networks organization has ongoing projects to
       evaluate its data communications network to improve and upgrade the infrastructure,
       while at the same time trying to reduce network operations costs. However, additional
       actions could further improve the disaster recovery strategy for data communications.
                                                          2

While each of the four facilities we visited prepared a disaster recovery plan for data
communications and stored the plan at its off-premises location, the plans did not
contain all of the required components and sufficient training had not been conducted
for the disaster recovery teams. Inadequate disaster recovery plans and training for the
disaster recovery personnel diminish the assurance that the IRS can rapidly recover
data communications at a site in an emergency and that the disaster recovery activities
can be conducted efficiently. In addition, the plans had not been comprehensively
exercised. While the day-to-day operational measures taken by management and staff
in response to daily data communications interruptions may diminish the need for
testing system restoration, exercising the remaining plan elements, such as plan
activation and team member notification and reporting procedures, would improve the
site’s ability to recover timely.
Presidential Decision Directive 63, Critical Infrastructure Protection (CIP),1 dated
May 1998, requires that each Federal Government department and agency prepare a
plan for protecting its own critical infrastructure. The infrastructure includes systems
essential to the minimum operations of the economy and the Federal Government, such
as telecommunications, banking and finance, energy, and transportation. As part of its
CIP Program, the IRS identified 19 critical assets, which included the data
communications network. The IRS also completed a vulnerability assessment in
November 2000 for each of the critical assets. However, the IRS has not completed the
disaster recovery planning and risk management activities for data communications,
which could result in the inability of the IRS to timely restore critical data
communications in the event of a disaster, potentially affecting the IRS’ ability to
accomplish its mission and serve taxpayers.
Lastly, the IRS engaged a vendor to assess the old network, propose a new network
design, and provide cost estimates for a new network. The vendor concluded that the
proposed design and configuration presented the least amount of complexity and cost
while delivering the maximum level of capabilities and benefits, including alternate
routing access and recovery. However, the IRS did not prepare a formal cost-benefit
analysis which may have resulted in the IRS not selecting the most feasible or
cost-effective data communications network design and recovery strategy that would
support the needs of the business units. In addition, our site survey results showed that
a bi-directional ring2 connecting the Campus3 and Territory Office4 in Atlanta was not
being used as advantageously as possible. For example, the Territory Office currently
does not use the bi-directional ring for routing its data traffic; instead, the data are being
sent over a separate circuit. By implementing a solution that would permit the Territory

1
  Homeland Security Presidential Directive 7, Critical Infrastructure Identification, Prioritization, and Protection,
issued December 17, 2003, superseded Presidential Decision Directive 63 and requires Federal agencies to identify
and provide information security protections commensurate with the risk and magnitude of the harm resulting from
the disruption or destruction of information.
2
  A bi-directional ring topology reroutes traffic in the other direction if the circuit is cut.
3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the computing centers for analysis and posting to taxpayer accounts.
4
  Territory Offices serve taxpayers within a specified geographical area.
                                                           3

Office to shift its data traffic to the bi-directional ring, management could remove the
circuit and realize potential cost savings of $315,0005 over 5 years.
We recommended the Chief, Information Technology Services, ensure each site
reviews the disaster recovery plan for completeness and accuracy quarterly or
whenever significant changes occur to any plan element, periodically trains employees
in their disaster recovery roles and responsibilities, and performs at least one exercise
of each disaster recovery plan element annually. In addition, we recommended the
Chief, Information Technology Services, complete the additional disaster recovery and
risk management measures outlined in the IRS’ CIP Program for the data
communications network, ensure a cost-benefit analysis is prepared for projects
redesigning the network architecture that result in a significant investment, and ensure
the current IRS project tasked with optimizing the data communications network also
assesses the use of the bi-directional rings.
Management’s Response: IRS management agreed to the recommendations
presented in the report. Planned corrective actions include performing quarterly reviews
of the disaster recovery plans, conducting yearly training sessions and disaster recovery
tests, and identifying critical points of failure within the local area networks. Enterprise
Networks organization management will include the names, responsible program areas,
and contact numbers in site-specific disaster recovery plans. All future risk
assessments of the network(s) will be processed under the Treasury Communications
Enterprise managed services contract. In addition, Enterprise Networks organization
management will develop a suite of business case and alternative analysis processes
for evaluating significant investment projects and will include an evaluation of
bi-directional rings when optimizing the data communications network. Management’s
complete response to the draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.




5
    The potential cost savings of $315,000 would be reduced by any additional costs to implement the solution.
                  Additional Disaster Recovery Planning, Testing, and Training
                             Are Needed for Data Communications




                                                  Table of Contents


Background ............................................................................................... Page 1
Several Measures Have Been Taken to Deliver
Uninterrupted Data Communications......................................................... Page 2
Improved Site Disaster Recovery Plans and Increased
Testing and Training Are Needed for Data Communications .................... Page 3
         Recommendation 1: ...................................................................... Page 7
         Recommendations 2 and 3: .......................................................... Page 8

The Data Communications Network Requires Additional
Disaster Recovery and Risk Management Measures................................ Page 8
         Recommendation 4: ...................................................................... Page 10

Significant Investments to Enhance Network Availability and
Recovery Capability Should Require a Cost-Benefit Analysis ................... Page 11
         Recommendations 5 and 6: .......................................................... Page 14

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 15
Appendix II – Major Contributors to This Report........................................ Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Outcome Measures ............................................................ Page 18
Appendix V – Status of Additional Measures by Site to
Ensure Uninterrupted Data Communications ............................................ Page 19
Appendix VI – Status of Site Disaster Recovery Plans for Data
Communications........................................................................................ Page 21
Appendix VII – Management’s Response to the Draft Report ................... Page 23
             Additional Disaster Recovery Planning, Testing, and Training
                        Are Needed for Data Communications

                                One of the Internal Revenue Service’s (IRS) major
Background
                                strategies contained in the IRS Strategic Plan Fiscal
                                Years 2000-2005 is to provide high-quality, efficient, and
                                responsive information services. This strategy includes
                                building a robust, responsive telecommunications
                                infrastructure that provides high-speed, high-availability
                                network connectivity to allow users and taxpayers fast and
                                efficient access to authorized IRS applications and services.
                                The IRS Enterprise Networks organization is responsible for
                                managing the design and engineering of the
                                telecommunications environment, which includes
                                approximately 181,500 network devices and 1,200 network
                                connection addresses.
                                To ensure network availability, controls should be
                                implemented that are designed both to prevent interruptions
                                and to promptly recover data communications service
                                should unexpected events occur. Business continuity
                                planning is the process of establishing, testing, and
                                maintaining policies, procedures, and physical resources to
                                effect the timely resumption of critical business processes in
                                the event of a disaster. A key component of business
                                continuity planning is disaster recovery planning, which is
                                the advance planning and preparations from a technology
                                aspect that are necessary to minimize loss and ensure
                                continuity of the critical business functions.
                                In the IRS-Wide Business Continuity Planning – Case for
                                Action, dated November 30, 2001, the IRS reported
                                weaknesses in its ability to perform disaster recovery. For
                                example, the IRS reported that many of its business
                                continuity plans were not tested and updated on a regular
                                basis. In December 2002, we reported that the IRS had
                                made substantial progress in its business continuity
                                program.1 Activities initiated by the IRS included
                                increasing the visibility and management oversight of
                                business continuity issues, improving physical security at its
                                offices, and developing plans to improve the recovery
                                capability of its mainframe computers. However, the
                                General Accounting Office (GAO) reported in May 2003

                                1
                                 The Internal Revenue Service Has Made Substantial Progress in Its
                                Business Continuity Program, but Continued Efforts Are Needed
                                (Reference Number 2003-20-026, dated December 2002).
                                                                                              Page 1
               Additional Disaster Recovery Planning, Testing, and Training
                          Are Needed for Data Communications

                                  that the IRS had not developed disaster recovery plans for
                                  certain key systems at some facilities and had not tested the
                                  plans at other facilities.2 A disaster recovery plan defines
                                  the resources, actions, tasks, and data required to manage
                                  the restoration process for an application or system within
                                  the stated disaster recovery goals, thereby minimizing the
                                  effects of a major disruption.
                                  This review was performed in the Enterprise Networks
                                  office at the IRS National Headquarters in
                                  New Carrollton, Maryland; the Tennessee Computing
                                  Center (TCC)3 in Memphis, Tennessee; the Martinsburg
                                  Computing Center (MCC) in Martinsburg, West Virginia;
                                  and the IRS Campus4 and Territory Office5 in
                                  Atlanta, Georgia, during the period September through
                                  December 2003. The audit was conducted in accordance
                                  with Government Auditing Standards. Detailed information
                                  on our audit objective, scope, and methodology is presented
                                  in Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  Maintaining uninterrupted data communications is critical to
Several Measures Have Been
                                  the IRS to accomplish its mission of providing top-quality
Taken to Deliver Uninterrupted
                                  service to taxpayers. As a result, the IRS has implemented
Data Communications
                                  several measures to create a robust and resilient network
                                  architecture to support continuous data communications. As
                                  reflected in the Data Communications Utility (DCU)
                                  Network Border Router Configuration and Redundancy
                                  Design, dated April 2000, and the Infrastructure
                                  Architecture Modernization Assessment, dated
                                  February 2002, the IRS has made significant upgrades to its
                                  network including:




                                  2
                                    Information Security: Progress Made, but Weaknesses at the
                                  Internal Revenue Service Continue to Pose Risks (Reference
                                  Number GAO-03-44, dated May 2003).
                                  3
                                    IRS computing centers support tax processing and information
                                  management through a data processing and telecommunications
                                  infrastructure.
                                  4
                                    The data processing arm of the IRS. The campuses process paper and
                                  electronic submissions, correct errors, and forward data to the
                                  computing centers for analysis and posting to taxpayer accounts.
                                  5
                                    Territory Offices serve taxpayers within a specified geographical area.
                                                                                                   Page 2
               Additional Disaster Recovery Planning, Testing, and Training
                          Are Needed for Data Communications

                                  •   Implementation of Asynchronous Transfer Mode
                                      (ATM)6 as the backbone7 transport.
                                  •   Redundant connections between IRS campuses and
                                      computing centers.
                                  •   The use of bi-directional ring topology8 and microwave9
                                      to provide diverse and redundant data traffic routing for
                                      the computing centers.
                                  •   Standardization and redundancy in network hardware at
                                      each of the border router locations.
                                  The results of our site visits to four IRS facilities also
                                  reflected that additional measures were being taken to
                                  reduce the vulnerability of the data communications
                                  network at those sites. Detailed information on our site
                                  visits is presented in Appendix V. These measures included
                                  off-premises storage of network documentation, network
                                  system backups, installation of an uninterruptible power
                                  supply, and identification and reduction of single points of
                                  failure within the network. In addition, the sites maintained
                                  some spare parts for network equipment and had service
                                  level agreements with vendors for repairs. The Enterprise
                                  Networks organization also has ongoing projects to evaluate
                                  its data communications network to improve and upgrade
                                  the infrastructure, while at the same time trying to reduce
                                  network operations costs.
                                  Office of Management and Budget (OMB) Circular A-130,
Improved Site Disaster
                                  Security of Federal Automated Information Resources,
Recovery Plans and Increased
                                  requires that agency plans assure they can recover and
Testing and Training Are
                                  provide sufficient service to meet the minimal user needs of
Needed for Data
                                  the system in the event of a disaster. Disaster recovery is
Communications
                                  the ability to respond to an interruption in services by
                                  implementing a disaster recovery plan to restore an
                                  organization’s critical business functions. The IRS Internal

                                  6
                                    The ATM is a high-speed, cell-switching network technology that
                                  handles data, real-time video, and voice.
                                  7
                                    A segment of the network used to connect smaller segments of the
                                  network.
                                  8
                                    A bi-directional ring topology reroutes traffic in the other direction if
                                  the circuit is cut.
                                  9
                                    Microwave is a point-to-point, free-space technology providing an
                                  alternative to a fiber-based network.
                                                                                                       Page 3
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                   Revenue Manual (IRM) contains specific requirements for
                   developing a disaster recovery plan for all mission critical
                   systems at each facility. The IRS has also developed a
                   disaster recovery plan template to assist site management in
                   the development of their respective plans.
                   Major components of a site’s disaster recovery plan for data
                   communications should include an overview of the disaster
                   recovery strategy, recovery team information, notification
                   procedures, network/circuit diagrams, hardware and
                   software inventory, system backup requirements,
                   off-premises storage information, and a telephone listing of
                   external contacts such as vendors and suppliers. The
                   disaster recovery plan should also contain recovery
                   priorities and step-by-step restoration procedures to prevent
                   difficulty or confusion in an emergency. The IRM
                   stipulates that each site store a complete copy of the plan in
                   both magnetic media and hard copy at the off-premises
                   storage facility for that site.
                   The IRM also contains requirements for maintaining and
                   testing the disaster recovery plans to assure the system can
                   be recovered in a timely manner. To be effective, the plan
                   must be reviewed and updated regularly since frequent
                   changes can occur with the names and contact information
                   for team members and with system requirements and
                   procedures as a result of shifting business needs and
                   technology upgrades. Therefore, the IRM requires that the
                   plan be reviewed quarterly, tested annually, and updated as
                   needed to provide for the reasonable restoration of
                   operations. According to the National Institute of Standards
                   and Technology (NIST),10 testing of the disaster recovery
                   plan should include exercising each plan element to identify
                   planning gaps and address plan deficiencies, thereby
                   improving plan effectiveness and overall agency
                   preparedness. The disaster recovery personnel should also
                   be trained at least annually to prepare them to execute their
                   respective recovery procedures during plan activation.




                   10
                     The NIST is an organization within the United States Department of
                   Commerce that is responsible for setting security standards for the
                   nondefense side of the Federal Government.
                                                                                 Page 4
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                   As illustrated in Exhibit 1, a review of the disaster recovery
                   plans and preparedness activities for data communications at
                   four IRS facilities identified areas where improvements are
                   needed. Detailed information on our review of the sites’
                   disaster recovery plans is contained in Appendix VI.
                                    Exhibit 1: Status of Disaster Recovery Activities
                                               for Data Communications

                                                              Plan     Comprehensive    Sufficient
                         IRS            Plan       Plan
                                                             Stored      Exercise of     Training
                        Facility      Prepared   Complete
                                                             Offsite      the Plan      Conducted

                         MCC            Yes        No         Yes           No             Yes


                         TCC11          Yes        No         Yes           No             No


                        Atlanta
                                        Yes        No         Yes           No             Yes
                        Campus

                        Atlanta
                        Territory       Yes        No         Yes           No             No
                         Office
                   Source: The Treasury Inspector General for Tax Administration’s
                   review of site disaster recovery plans and discussions with management
                   using requirements contained in NIST and IRS guidelines.

                   While each facility prepared a disaster recovery plan for
                   data communications and stored it at its off-premises
                   location, the plans did not contain all of the required
                   components. In addition, the plans had not been
                   comprehensively exercised and sufficient training had not
                   been conducted for the disaster recovery teams.
                   The disaster recovery plans require additional
                   information
                   The disaster recovery plans prepared by each site for data
                   communications contained many of the required
                   components. In general, the disaster recovery plans
                   contained an overview of the recovery strategy, recovery
                   team member names and telephone numbers, recovery team
                   responsibilities, notification procedures, contact information
                   for vendors and suppliers, network/circuit diagrams, system

                   11
                     The TCC had recently prepared a Technical Contingency Planning
                   Document, which was regarded as the site’s disaster recovery plan for
                   evaluative purposes since it contained many of the required components
                   and was similar in format to a disaster recovery plan.
                                                                                         Page 5
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                   backup requirements, and off-premises storage information.
                   However, most of the plans did not contain the following
                   information required by NIST and IRS guidelines:
                   •    Recovery priorities and step-by-step restoration
                        procedures.
                   •    An inventory of hardware and software.
                   •    A listing of Internet Protocol (IP)12 addresses and
                        circuits.
                   •    A record of updates to the plan.
                   While management at the sites we visited did maintain an
                   inventory of hardware and a listing of IP addresses, and
                   stored this information at their off-premises locations, they
                   did not include this information as part of their disaster
                   recovery plans. Inadequate disaster recovery plans diminish
                   the assurance that the IRS can rapidly recover data
                   communications at a site in an emergency and that the
                   disaster recovery activities can be conducted efficiently.
                   Management did not develop adequate disaster recovery
                   plans because they were uncertain about exactly what
                   information should have been included in the plans.
                   Additional testing of the plans and training of the
                   disaster recovery personnel are needed
                   Each of the sites had not completed a comprehensive
                   exercise of its disaster recovery plan for data
                   communications. Management explained that the recovery
                   of failed data communications devices is a day-to-day
                   operational issue. While sites may not specifically
                   document disaster recovery testing, they exercise their
                   disaster recovery capabilities throughout the year in
                   response to incidents, including the restoration of routers.
                   Management also performs tests by annually powering off
                   and restoring equipment and by participating in the disaster
                   recovery exercises of other systems (e.g., mainframe
                   computers). In addition, management attributed the absence
                   of a formal disaster recovery test for data communications
                   to their concern for disrupting operations.

                   12
                     A Department of Defense standard protocol designed for use in
                   interconnected systems of computer communications networks.
                                                                                 Page 6
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                   According to NIST guidelines, a disaster recovery test
                   should include exercising each plan element, such as plan
                   activation, team member notification and reporting
                   procedures, and system restoration from backup media.
                   While the day-to-day operational measures taken by
                   management and staff in response to daily data
                   communications interruptions may diminish the need for
                   testing system restoration, exercising the remaining plan
                   elements would improve the site’s ability to recover timely.
                   To obtain the most benefit from disaster recovery testing,
                   the test plan should contain detailed information, including
                   the scenario, test elements, evaluation criteria, and time
                   periods. The results of the test should be documented and
                   lessons learned identified to improve plan effectiveness.
                   Training was inadequate for the disaster recovery personnel
                   because management was unsure what the training should
                   entail for their disaster recovery teams. According to the
                   NIST, recovery personnel should be trained at least annually
                   on the following elements:
                   •   Purpose of the plan.
                   •   Cross-team coordination and communication.
                   •   Reporting procedures and security requirements.
                   •   Team-specific processes and individual responsibilities.
                   The goal of disaster recovery training should be to train the
                   disaster recovery personnel to the extent that they are able to
                   execute initial recovery procedures without aid of the actual
                   document, since a paper or electronic version of the plan
                   may be unavailable for the first few hours as a result of the
                   disaster.

                   Recommendations
                   The Chief, Information Technology Services, should ensure
                   each site:
                   1. Reviews the disaster recovery plan for completeness and
                      accuracy quarterly or whenever significant changes
                      occur to any plan element.
                   Management’s Response: The MCC and TCC developed a
                   process to perform quarterly reviews. The first review will
                                                                           Page 7
              Additional Disaster Recovery Planning, Testing, and Training
                         Are Needed for Data Communications

                                 be completed by April 1, 2004. The Atlanta Territory
                                 Manager implemented a controlled response process to
                                 ensure the disaster recovery plan was reviewed. The
                                 responses are due March 31, June 30, September 30, and
                                 December 31 requiring verification that each team has met
                                 and their respective disaster recovery plans have been
                                 reviewed for accuracy. A Plan Changes or Reviews sheet
                                 has been added to the plans to document all changes to and
                                 reviews of the plans.
                                 2. Periodically trains employees in their disaster recovery
                                    roles and responsibilities.
                                 Management’s Response: Both the MCC and TCC will
                                 conduct yearly training sessions beginning in
                                 September 2004 during the preplanning phase for this year’s
                                 disaster recovery exercise. The Atlanta Territory Manager
                                 will ensure the Telecommunications organization conducts
                                 an independent biannual disaster recovery table exercise and
                                 documents it in the plan.
                                 3. Performs at least one exercise of each disaster recovery
                                    plan element annually.
                                 Management’s Response: Testing at the MCC and TCC is
                                 conducted more frequently than on an annual basis. This
                                 includes participation in disaster recovery of other systems
                                 (e.g., mainframe disaster recovery exercise). Testing for
                                 this calendar year will be conducted by December 1, 2004.
                                 The Atlanta Campus and Atlanta Territory Manager will
                                 coordinate with the Mission Assurance Office to ensure
                                 annual disaster recovery testing is conducted.
                                 Presidential Decision Directive (PDD) 63, Critical
The Data Communications
                                 Infrastructure Protection (CIP),13 dated May 1998, calls for
Network Requires Additional
                                 a national effort to assure the security of the nation’s critical
Disaster Recovery and Risk
                                 infrastructure. The infrastructure includes systems essential
Management Measures
                                 to the minimum operations of the economy and Federal
                                 Government, such as telecommunications, banking and

                                 13
                                   Homeland Security Presidential Directive 7, Critical Infrastructure
                                 Identification, Prioritization, and Protection, issued
                                 December 17, 2003, superseded PDD 63 and requires Federal agencies
                                 to identify and provide information security protections commensurate
                                 with the risk and magnitude of the harm resulting from the disruption or
                                 destruction of information.
                                                                                                 Page 8
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                   finance, energy, and transportation. PDD 63 also requires
                   that each Federal Government department and agency
                   prepare a plan for protecting its own critical infrastructure.
                   Executive Order 13231, Critical Infrastructure Protection
                   in the Information Age, issued October 2001, reaffirms the
                   need to continually take actions to secure information
                   systems, emergency preparedness communications, and
                   physical assets.
                   The Department of the Treasury Critical Infrastructure
                   Protection Plan (TCIPP), dated August 30, 2002, stipulated
                   that each departmental office and bureau is responsible for
                   identifying the critical assets under its control, assessing the
                   vulnerabilities of those assets, and assuring their
                   availability, integrity, confidentiality, survivability, and
                   adequacy. According to the TCIPP, critical infrastructure
                   would include the physical and cyber assets that support
                   critical missions. Physical assets include the facilities
                   providing service to the public, while cyber assets include
                   networks, computers, applications, data, and information.
                   Each departmental office and bureau is also required to
                   develop its own CIP Management Plan addressing
                   governance, risk management, critical asset management,
                   threat assessment, vulnerability/risk assessment, disaster
                   recovery planning and management, incident reporting and
                   handling, and training and awareness.
                   In February 2003, we reported that, while the IRS had not
                   yet completed its CIP Management Plan, it had taken
                   significant steps in protecting its critical assets.14 Some of
                   the required activities identified in the IRS’ draft CIP
                   Management Plan included:
                   •    Critical asset identification.
                   •    Vulnerability assessment.
                   •    Disaster recovery planning.
                   •    Risk management.
                   As part of its CIP Program, the IRS identified 19 critical
                   assets, which included the data communications network.

                   14
                    Progress Has Been Made in Protecting Critical Assets (Reference
                   Number 2003-20-047, dated February 2003).
                                                                               Page 9
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                   The IRS also completed a vulnerability assessment in
                   November 2000 for each of the critical assets. However, the
                   IRS has not completed the disaster recovery planning and
                   risk management activities for data communications, which
                   could result in the inability of the IRS to timely restore
                   critical data communications in the event of a disaster,
                   potentially affecting the IRS’ ability to accomplish its
                   mission and serve taxpayers.
                   According to the draft CIP Management Plan, critical asset
                   owners shall ensure that disaster recovery plans cover their
                   critical assets and that those plans appropriately prioritize
                   actions with respect to those critical assets. For data
                   communications, the disaster recovery plan should address
                   the compromise or incapacitation of the critical asset as a
                   result of physical or cyber attacks as well as natural
                   disasters. Critical asset owners were also required to
                   develop and maintain a risk management plan. Risk
                   management encompasses those activities taken to identify,
                   control, and reduce risks. The risk management plan should
                   be reviewed and revised annually or more frequently in
                   response to changes in the assessed risk.
                   IRS management explained that a disaster recovery plan and
                   risk management plan were not developed for the data
                   communications network because they were notified by the
                   Department of the Treasury that critical assets were going to
                   be reidentified by the National Critical Infrastructure
                   Assurance Office. However, the IRS has not received any
                   updated listing of its critical assets. The CIP Program
                   efforts have also stalled to some extent since the stand-up of
                   the Department of Homeland Security (DHS), which
                   resulted in the former Department of the Treasury’s Critical
                   Infrastructure Protection Officer transferring to the DHS.

                   Recommendation

                   4. The Chief, Information Technology Services, should
                      complete the additional disaster recovery and risk
                      management measures outlined in the IRS’ CIP Program
                      for the data communications network.
                   Management’s Response: The Enterprise Networks
                   organization will partner with the End User Equipment and
                                                                         Page 10
               Additional Disaster Recovery Planning, Testing, and Training
                          Are Needed for Data Communications

                                  Services organization to identify critical points of failure
                                  within the IRS’ local area networks. The Enterprise
                                  Networks organization will also provide the names,
                                  responsible program areas, and contact number of its
                                  management team to be included in site-specific disaster
                                  recovery plans.
                                  As the Treasury Communications System will soon be
                                  replaced with the Treasury Communications Enterprise
                                  (TCE) managed services contract, all future risk
                                  assessments of the wide or local area network(s) should be
                                  processed under the TCE umbrella. The Enterprise
                                  Networks organization will begin transitioning to the TCE
                                  in Fiscal Year 2005.
                                  OMB Circular A-130 requires that agencies take
Significant Investments to
                                  cost-effective steps to manage any disruption of service in
Enhance Network Availability
                                  the event of a disaster. In addition, the Clinger-Cohen Act
and Recovery Capability Should
                                  of 199615 (also referred to as the Information Technology
Require a Cost-Benefit Analysis
                                  Management Reform Act) requires each Federal
                                  Government agency to establish effective and efficient
                                  capital planning processes for selecting, managing, and
                                  evaluating the results of all its major investments in
                                  information systems.
                                  According to the NIST, agencies should perform a
                                  cost-benefit analysis to identify the optimum recovery
                                  strategy. The cost-benefit analysis should include the
                                  following for each alternative considered:
                                  •    Assumptions and constraints of the business
                                       need/problem.
                                  •    A description of the alternative being considered.
                                  •    The benefits and costs on a full life-cycle basis.
                                  •    A risk analysis that addresses both technical and
                                       organizational risk.
                                  In April 2000, a team of IRS network engineers and
                                  contracted consultants prepared the proposal for the IRS’

                                  15
                                    Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of
                                  5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C., 16 U.S.C., 18 U.S.C.,
                                  22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C.,
                                  41 U.S.C., 42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                  Page 11
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                   current ATM/Frame Relay16 data communications network.
                   The network topology in Exhibit 2 shows the hierarchal
                   ATM network design for connections among the computing
                   centers, campuses, and Territory Offices. The posts-of-duty
                   have Frame Relay connectivity to the Territory Offices.
                                       Exhibit 2: Network Topology

                    Computing           CC                               CC
                    Center
                                                         CC




                    Campus                           C         C



                    Territory Office            TO       TO        TO



                   Source: DCU Network Border Router Configuration and Redundancy
                   Design, dated April 20, 2000.

                   The goal was to design a consistent, highly available system
                   architecture that could be scaled to meet the current and
                   future requirements. As illustrated in Exhibit 3, the design
                   provided for standardization of the border router
                   configuration within the IRS network and redundancy at
                   each of the border router locations. The switches are paired
                   with the border routers to avoid single points of failure and
                   to provide more than one access point into the ATM service
                   provider.
                              Exhibit 3: Network Border Router Configuration

                                        ATM Switch       Border Router    Domain Router




                   Source: DCU Network Border Router Configuration and Redundancy
                   Design, dated April 20, 2000.



                   16
                      Frame Relay is a high-speed protocol suited for data and image
                   transfer.
                                                                                  Page 12
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                   The design provided for the capability that, in the event of a
                   failure in the primary or secondary communication path, the
                   unaffected path would provide alternate routing access and
                   recovery. While the vendor concluded that the proposed
                   design and configuration presented the least amount of
                   complexity and cost while delivering the maximum level of
                   capabilities and benefits, the IRS did not prepare a formal
                   cost-benefit analysis. Instead, the IRS engaged the vendor
                   to assess the old network, propose a new network design,
                   and provide cost estimates for the new ATM/Frame Relay
                   network.
                   The proposed ATM/Frame Relay data communications
                   network was estimated to cost $4.9 million and was largely
                   comprised of the vendor’s products and equipment. Not
                   conducting a formal cost-benefit analysis may have resulted
                   in the IRS not selecting the most feasible or cost-effective
                   data communications network design and recovery strategy
                   that would support the needs of the business units. IRS
                   management explained that an immediate and significant
                   upgrade to the data communications network was necessary
                   at the time and that the absence of a cost-benefit analysis
                   occurred primarily because they did not consider the
                   redesign of the network to be a separate information
                   technology investment project.
                   IRS management recognizes that, while there is a strong
                   argument in favor of ease of operations and management to
                   use a single vendor environment, it hinders their ability to
                   leverage the IRS’ purchasing power. In fact, the Enterprise
                   Networks organization is actively assessing its data
                   communications network to implement improvements while
                   reducing operational costs. For example, a current IRS
                   project is tasked with optimizing the data communications
                   network since it was based on the IRS’ organizational
                   structure prior to the reorganization, which has resulted in
                   architectural inefficiencies and operational issues.
                   One of the effectiveness measures identified by the project
                   is to identify potential cost savings opportunities
                   (e.g., reduced hardware, circuits, etc.). This effort should
                   also include assessing the use of the bi-directional rings that
                   provide diverse traffic routing at some IRS locations. Our
                   site survey results showed that a bi-directional ring

                                                                          Page 13
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                   connecting the Campus and Territory Office in Atlanta was
                   not being used as advantageously as possible. For example,
                   the Territory Office currently does not use the bi-directional
                   ring for routing its data traffic; instead, the data are being
                   sent over a separate circuit. By implementing a solution that
                   would permit the Territory Office to shift its data traffic to
                   the bi-directional ring, management could remove the
                   circuit and realize potential cost savings of $315,00017 over
                   5 years.

                   Recommendations

                   The Chief, Information Technology Services, should ensure:
                   5. A cost-benefit analysis is prepared for projects
                      redesigning the network architecture that result in a
                      significant investment.
                   Management’s Response: The Enterprise Networks
                   organization will develop a suite of business case and
                   alternative analysis processes for evaluating significant
                   investment projects, which will be used as a critical decision
                   factor in all recommendations and approvals.
                   6. The current IRS project tasked with optimizing the data
                      communications network also assesses the use of the
                      bi-directional rings.
                   Management’s Response: The Engineering Branch of the
                   Enterprise Networks organization will include the use and
                   evaluation of bi-directional rings when optimizing the data
                   communications network.




                   17
                     The potential cost savings of $315,000 would be reduced by any
                   additional costs to implement the solution.



                                                                               Page 14
                   Additional Disaster Recovery Planning, Testing, and Training
                              Are Needed for Data Communications

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue
Service (IRS) developed and tested an effective telecommunications disaster recovery strategy.
To accomplish this objective, we:
I.      Reviewed the policies and procedures for completing a cost-benefit analysis during the
        development of a disaster recovery strategy to ensure redundancy and resiliency in the
        data communications architecture. We interviewed management and reviewed studies
        and analyses completed to establish the recommended disaster recovery strategy to
        determine whether a cost-benefit analysis was used to select the most efficient disaster
        recovery option. We also reviewed the IRS’ network topology to determine if the
        selected strategy was incorporated into the current data communications architecture.
II.     Reviewed the policies and procedures for developing and updating disaster recovery
        plans. We interviewed management at the visited sites about the preparation of a disaster
        recovery plan for telecommunications and about the effectiveness and efficiency of the
        current disaster recovery architecture. We also reviewed the disaster recovery plans at
        the visited sites to determine their adequacy and completeness for prompt recovery of
        data communications in the event of a disaster. In addition, we determined if measures
        were implemented to ensure uninterrupted telecommunications and reviewed the network
        topology to assess whether single points of failure had been sufficiently eliminated.
III.    Reviewed the policies and procedures for conducting disaster recovery tests and
        evaluating test results. In addition, we reviewed the disaster recovery test plans, test
        results, and test schedule at each site to identify the extent to which the disaster recovery
        capabilities for telecommunications were tested and whether identified deficiencies have
        been adequately addressed. At each site, we also identified training provided to the
        telecommunications disaster recovery staff related to their disaster recovery
        responsibilities.
IV.     Reviewed the policies and procedures for the Critical Infrastructure Protection (CIP)1
        Program to determine what additional actions the IRS requires for its critical assets. In
        addition, we interviewed management and reviewed documents prepared by the IRS to
        meet CIP Program requirements related to telecommunications.




1
 The CIP Program is a national effort to assure the security of the nation’s critical infrastructure, which includes
systems essential to the minimum operations of the economy and Federal Government, such as telecommunications,
banking and finance, energy, and transportation.

                                                                                                           Page 15
               Additional Disaster Recovery Planning, Testing, and Training
                          Are Needed for Data Communications

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Paul Mitchell, Senior Auditor
Van Warmke, Senior Auditor
Olivia Jasper, Auditor
Linda Screws, Auditor




                                                                                         Page 16
             Additional Disaster Recovery Planning, Testing, and Training
                        Are Needed for Data Communications

                                                                            Appendix III


                             Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Information Technology Services OS:CIO:I
Director, End User Equipment and Services OS:CIO:I:EU
Director, Enterprise Networks OS:CIO:I:EN
Acting Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
    Chief, Information Technology Services OS:CIO:I
    Director, End User Equipment and Services OS:CIO:I:EU
    Director, Enterprise Networks OS:CIO:I:EN
    Manager, Program Oversight and Coordination OS:CIO:R:PM:PO




                                                                                 Page 17
                  Additional Disaster Recovery Planning, Testing, and Training
                             Are Needed for Data Communications

                                                                                                Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Cost Savings, Funds Put to Better Use – Potential; $315,000 (see page 11).
Methodology Used to Measure the Reported Benefit:
We reviewed the use of the bi-directional ring1 connecting the Campus2 and Territory Office3 in
Atlanta, Georgia. We determined that by shifting the Territory Office’s data traffic to the
bi-directional ring, management could remove the current circuit for data traffic and realize
potential cost savings of $315,0004 over 5 years.

Description                                                                                     Amount
Estimated average current monthly recurring charge of circuit used for data                      $5,700
traffic at the Territory Office.
Estimated monthly recurring charge for using the bi-directional ring.                            <$450>
Estimated monthly savings by shifting the data traffic to the bi-directional                     $5,250
ring.
Estimated 5-year savings ($5,250 * 12 months * 5 years).                                        $315,000




1
  A bi-directional ring reroutes traffic in the other direction if the circuit is cut.
2
  The data processing arm of the Internal Revenue Service. The campuses process paper and electronic submissions,
correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
3
  Territory Offices serve taxpayers within a specified geographical area.
4
  The potential cost savings of $315,000 would be reduced by any additional costs to implement the solution.




                                                                                                        Page 18
                       Additional Disaster Recovery Planning, Testing, and Training
                                  Are Needed for Data Communications

                                                                                                  Appendix V


                             Status of Additional Measures by Site to Ensure
                                  Uninterrupted Data Communications

    Checks [ ] represent those measures implemented at the site.

                                                                    Martinsburg   Tennessee    Atlanta    Atlanta
          Measure                         Comments                  Computing     Computing   Campus2    Territory
                                                                            1                                    3
                                                                      Center        Center                Office

    1.   Risk Assessment       All sites had risk assessments
                               completed on their networks
                               within the last 3 years.
    2.   Backup Power          Each of the sites had an
         Source                uninterruptible power supply
                               device and generator.
    3.   Multiple              The Martinsburg Computing
         Demarcation           Center consisted of two
               4
         Points                buildings. Each building had a
                               demarcation point, and there was
                               a separate fiber cable connecting
                               the two buildings to provide
                               redundancy.
    4.   Spare Parts           All sites maintained some spare
         Inventory             parts for repairs.
    5.   Service Level         All sites had a service level
         Agreements With       agreement with vendors for
         Vendors               repairs.
    6.   Redundant             All sites had redundant circuits
         Circuits              for network connectivity.
    7.   Network Diversity     All sites used bi-directional ring
                                         5               6
                               topology or microwave to
                               provide network diversity.




1
  Internal Revenue Service (IRS) computing centers support tax processing and information management through a
data processing and telecommunications infrastructure.
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the computing centers for analysis and posting to taxpayer accounts.
3
  Territory Offices serve taxpayers within a specified geographical area.
4
  The demarcation point is the interface location for telecommunications at the customer’s premises.
5
  A bi-directional ring topology reroutes traffic in the other direction if the circuit is cut.
6
  Microwave is a point-to-point, free-space technology providing an alternative to a fiber-based network.
                                                                                                         Page 19
                      Additional Disaster Recovery Planning, Testing, and Training
                                 Are Needed for Data Communications

    Checks [ ] represent those measures implemented at the site.

                                                                  Martinsburg   Tennessee   Atlanta    Atlanta
           Measure                     Comments                   Computing     Computing   Campus    Territory
                                                                    Center        Center               Office
                         7
    8.   Multiple Carriers   Except for the Martinsburg
                                                 8
                             Computing Center, all sites had
                             only one local carrier for their
                             data communications circuits.
    9.   System Backups      All sites were backing up critical
                             files and storing them at their
                             off-premises location.
    10. Off-premises         All sites stored system recovery
        Storage of           documentation at their
        Documentation        off-premises location.
Source: The Treasury Inspector General for Tax Administration’s review of Internal Revenue Service documents
and management discussions.




7
 A carrier is a telecommunications company that provides communications transmission services to the public.
8
 The Martinsburg Computing Center had microwave in addition to wire circuits for data communications, which
was provided by a different carrier.




                                                                                                      Page 20
                      Additional Disaster Recovery Planning, Testing, and Training
                                 Are Needed for Data Communications

                                                                                                Appendix VI


               Status of Site Disaster Recovery Plans for Data Communications

    Checks [ ] represent those items contained in the site’s disaster recovery plan.

                                                                  Martinsburg   Tennessee    Atlanta     Atlanta
              Plan Requirement and Description                    Computing     Computing   Campus2     Territory
                                                                          1                                     3
                                                                    Center        Center                 Office

    1.   Recovery Strategy Overview – A description of the
         methods that provide recovery capability over the full
         spectrum of incidents.

    2.   Recovery Team Information – The name, role, and
         telephone number for the recovery team leaders and
         members.

    3.   Notification Procedures – A description of the
         methods used to notify recovery personnel during
         business and nonbusiness hours.

    4.   Recovery Team Responsibilities – An overview of
         team member roles and responsibilities in a
         contingency situation.

    5.   Recovery Priorities – A prioritized sequence of
         recovery activities based upon the business impact
         analysis.

    6.   Restoration Procedures – Step-by-step procedures in
         sequential order to restore data communications.

    7.   Vendor and Supplier Information – The name,
         address, and telephone number of telecommunications
         vendors and suppliers.

    8.   Critical Telephone List – The name and telephone
         number of other critical personnel that may be needed
         during the recovery process.

    9.   Network/Circuit Diagrams – High- and low-level
         topologies that depict the interconnectivity between
         networks.




1
  Internal Revenue Service (IRS) computing centers support tax processing and information management through a
data processing and telecommunications infrastructure.
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the computing centers for analysis and posting to taxpayer accounts.
3
  Territory Offices serve taxpayers within a specified geographical area.
                                                                                                         Page 21
                      Additional Disaster Recovery Planning, Testing, and Training
                                 Are Needed for Data Communications

    Checks [ ] represent those items contained in the site’s disaster recovery plan.

                                                                    Martinsburg   Tennessee   Atlanta    Atlanta
              Plan Requirement and Description                      Computing     Computing   Campus    Territory
                                                                      Center        Center               Office

    10. Hardware and Software Inventory – A listing of
        physical hardware (i.e., circuits, routers, and switches)
        and computer software.

    11. System Backup Requirements – File backup
        frequency and rotation schedule for critical files stored
        at the off-premises facility.
                                           4
    12. Listing of Internet Protocol (IP) Addresses and
        Circuits – A listing of the IP addresses and circuits for
        both the facility and other supported sites.
    13. Off-premises Storage Information – The name,
        address, and telephone number of the off-premises
        storage facility.
    14. Record of Changes – A record of plan modifications
        that includes the page number, change comment, and
        date of change.
Source: The National Institute of Standards and Technology Special Publication 800-34, Contingency Planning
Guide for Information Technology Systems, the Internal Revenue Service’s Internal Revenue Manual and Disaster
Recovery Plan Template, and the Treasury Inspector General for Tax Administration’s review of site disaster
recovery plans.




4
 A Department of Defense standard protocol designed for use in interconnected systems of computer
communications networks.
                                                                                                        Page 22
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications

                                                           Appendix VII



     Management’s Response to the Draft Report




                                                                 Page 23
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications




                                                               Page 24
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications




                                                               Page 25
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications




                                                               Page 26
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications




                                                               Page 27
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications




                                                               Page 28
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications




                                                               Page 29
Additional Disaster Recovery Planning, Testing, and Training
           Are Needed for Data Communications




                                                               Page 30
